APPENDIX

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal
Tenth Circuit

FOR THE TENTH CIRCUIT

June 2, 2020

APPENDIX A

Christopher M. Wolpert
Clerk of Court

LNV CORPORATION,
Plaintiff - Appellee,

No. 19-1131
(D.C. No. 1:14-CV-00955-RM-SKC)
(D. Colo.)

v.

JULIA HOOK,
Defendant - Appellant,
and
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
DAVID L. SMITH; PRUDENTIAL
HOME MORTAGAGE COMPANY,
INC.; SAINT LUKES LOFTS
HOMEOWNER ASSOCATION, INC.;
DEBRA JOHNSON, in her official
capacity as the Public Trustee of the City
and County of Denver, Colorado,
Defendants.

ORDER AND JUDGMENT*
* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

1

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 2

Before BRISCOE, LUCERO, and HARTZ, Circuit Judges.
Julia Hook, an attorney representing herself, appeals from the district court’s
final judgment in a foreclosure action. Exercising jurisdiction under 28 U.S.C.
§ 1291, we dismiss this appeal as frivolous and deny Hook’s Motion to Proceed
In Forma Pauperis On Appeal.
LNV Corporation brought an action against Hook in the District Court for the
City and County of Denver, Colorado, seeking to foreclose a deed of trust on a piece
of real property she owned—a home. In addition to Hook, LNV named as defendants
several other parties potentially holding interests in the property, including the
Internal Revenue Service. LNV asked the court to determine the priorities of those
interests and to order a foreclosure sale of the property.
The United States (on behalf of the IRS) removed the action to the United
States District Court for the District of Colorado. LNV filed an amended complaint,
and in its answer the United States asserted a claim asking the district court to
consider its tax liens against the property when determining the priority of all liens
and to distribute any proceeds of the foreclosure sale in accordance with those
relative priorities. Hook and her husband, co-defendant David Smith, filed
counterclaims against LNV contesting, in relevant part, LNV’s right to foreclose on
the home. They also advanced claims against the United States, contesting their tax
liability and the tax liens.
2

2

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 3

The district court ultimately dismissed all of Hook’s claims and ruled in favor
of LNV on its claims against Hook and Smith, leaving to be decided only the manner
of judicial foreclosure and the amount of the judgment.
Although Hook and Smith filed a Chapter 7 bankruptcy petition, requiring the
district court to administratively close this case, the bankruptcy court granted LNV
relief from the automatic bankruptcy stay so the district court could proceed, and it
denied Hook and Smith’s motion to vacate the relief order. On the same day it
denied the motion to vacate, the bankruptcy court entered a discharge order relieving
Hook and Smith of their personal liability for certain debt but allowing “a creditor
with a lien [to] enforce a claim against [Hook and Smith’s] property subject to that
lien unless the lien was avoided or eliminated.” U.S. Supp. App. at 254.
After reopening the case the district court eventually entered a final judgment
in favor of LNV and the United States and against Hook and Smith. The court also
ordered foreclosure and judicial sale of Hook and Smith’s home. Only Hook appeals.
Hook’s arguments on appeal, which for the most part contend that the district
court lacked jurisdiction and denied her due process, are wholly frivolous. As an
attorney, she should have known that they lacked any merit before she argued them;
and in large part, the appellees’ briefs make that perfectly clear. We see no need to
further educate Hook.

1 The discharge order did not end the bankruptcy case, but that case was
eventually closed.
3

3

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 4

We add only a word about Hook’s suggestion that the district judge was
hostile to and biased against her, in violation of her due-process rights. “To
demonstrate a violation of due process because of judicial bias, a claimant must show
either actual bias or an appearance of bias.” Bixler v. Foster, 596 F.3d 751, 762
(10th Cir. 2010) (internal quotation marks omitted). But “[a]dverse rulings alone do
not demonstrate judicial bias.” Id. Hook’s bias argument relies solely on the district
court’s adverse rulings and therefore is devoid of merit.
Because this appeal is frivolous, see Ford v. Pryor, 552 F.3d 1174, 1180
(10th Cir. 2008) (“An appeal is frivolous when the result is obvious, or the
appellant’s arguments of error are wholly without merit.” (internal quotation marks
omitted)), we dismiss the appeal and deny Ms. Hook’s Motion to Proceed In Forma
Pauperis On Appeal, see 28 U.S.C. § 1915(e)(2)(B)(i) (requiring dismissal of
frivolous appeal filed by party seeking to proceed IFP); DeBardeleben v. Quinlan,
937 F.2d 502, 505 (10th Cir. 1991) (grant of IFP requires “a reasoned, nonfrivolous
argument on the law and facts in support of the issues raised on appeal”).
Consequently, Ms. Hook must pay all appellate filing and docketing fees ($505.00)
immediately to the United States District Court for the District of Colorado.
Entered for the Court

Harris L Hartz
Circuit Judge

4

4

APPENDIX B
06/02/2020

[10744339] Order filed by Judges Briscoe, Lucero and Hartz, as found in
the order and judgment, denying Attorney motion for leave to proceed in
forma pauperis filed by Appellant Ms. Mary Julia Hook. Appellant is
directed to immediately pay the filing fee in full, [text only entry - see
case termination for order and judgment] [19-1131] [Entered: 06/02/2020
08:44 AM]

5

Appellate Case: 19-1131

Document: 010110369031

Date Filed: 06/30/2020

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeal;
Tenth Circuit

FOR THE TENTH CIRCUIT

June 30, 2020

APPENDIX C

Christopher M. Wolpert
Clerk of Court

LNV CORPORATION,
Plaintiff - Appellee,
v.
JULIA HOOK,

No. 19-1131
(D.C.No. 1:14-CV-00955-RM-SKC)
(D. Colo.)

Defendant - Appellant,
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
DAVID LEE SMITH, et al.,
Defendants.

ORDER

Before BRISCOE, LUCERO, and HARTZ, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular

6

Appellate Case: 19-1131

Document: 010110369031

Date Filed: 06/30/2020

Page: 2

active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

7

—zj - —

APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

ORDER

This matter is before the Court on Plaintiff LNV Corporation’s Motion for Award of
Attorney’s Fees and Costs (the “Motion”) (ECF No. 414), seeking an award in the amount of
$245,000.00 as of May 31, 2018 (plus fees and expenses incurred after May 31, 2018), incurred
in connection with this case, the associated foreclosure sale, and any appeals taken from the
orders of this Court. Defendants Hook and Smith (collectively, “Defendants”) have filed a
response (“Defendants’ Response”) in opposition, to which Plaintiff has filed a Reply. (ECF
Nos. 417,419.) The United States filed a non-opposition statement to Plaintiffs Motion (ECF
No. 416); no other party filed any paper addressing the Motion.

8

—Zf — —

After reviewing the above briefs, the Court issued a Minute Order directing Plaintiff to
address an issue raised in Defendants’ Response. Plaintiff did so in its response (“Plaintiffs
Response”). (ECF Nos. 420, 421.) The Motion is ripe for resolution.
I.

FACTUAL AND PROCEDURAL BACKGROUND
The parties are well versed with the lengthy history which precedes the Motion so it will

not be repeated here. Suffice to say that only a few issues remain in this case, including the
Motion before the Court. The bottom line is this: the Court entered summary judgment in favor
of Plaintiff and against Defendant Hook on its Fifth Claim for Money Judgment and determined
the amounts that are owed under the terms of the Promissory Note and/or the Deed of Trust.
Thereafter, among other filings by one or more parties, Plaintiff filed the Motion seeking the fees
and costs at issue, asserting they are owed under the Promissory Note.
Defendants’ Response raises the following arguments in opposition to the Motion: (1)
Plaintiffs Motion allegedly violates the automatic stay, the discharge order, and/or the discharge
injunction in Defendants’ Chapter 7 bankruptcy case, and any judgment against them personally
will be void; (2) Plaintiff lacks standing; (3) the attorney’s fees and costs referenced in the
Promissory Note are required to be proved at trial as an element of damages; (4) Plaintiff fails to
specify any fee-shifting provision of law which would allow a recovery of fees under Fed. R.
Civ. P. 54(d)(2)(B); (5) pursuant to Fed. R. Civ. P. 54(d)(2)(B), the Court should order the
disclosure of the terms of any agreement about fees for the services for which the claim is made;
and (6) an evidentiary hearing should be had under Fed. R. Civ. P. 54(d)(2)(C). The Court
addresses such arguments in turn.
2

9

—Zf —

II.

DISCUSSION
A. Alleged Bankruptcy Violations and Standing
As Plaintiff argues, Defendants’ arguments concerning alleged violations of bankruptcy

law and Plaintiffs lack of standing have been raised and rejected on more than one occasion.
The Court will not address them again. Such arguments are rejected here for the same reasons
they were rejected before.
B. Argument that Fees and Costs are an Item of Damages
Defendants assert, albeit cursorily, that the requested amounts are required to be proved
at trial as an element of damages. Although the Court could have deemed such a cursory
argument, without legal support, waived, the Court directed Plaintiff to address this argument.
Plaintiff did so in Plaintiffs’ Response arguing the substantive law (here, Colorado law) does not
require the requested fees to be proved as an item of damages. The Court finds otherwise.
Rule 54(d)(2)(A) provides that “[a] claim for attorney’s fees and related nontaxable
expenses must be made by motion unless the substantive law requires those fees to be proved at
trial as an element of damages.” Under Colorado law, whether Defendants are entitled to have a
jury decide the attorney’s fees issue depends on whether such fees are “properly characterized as
costs or damages.” Chartierv. WeinlandHomes, Inc., 25 P.3d 1279, 1281 (Colo. App. 2001).
Consideration of whether fees are damages is “by its very nature, a fact - and context - sensitive
one, which rests within the sound discretion of the trial court.” Ferrell v. Glenwood Brokers,
Ltd., 848 P.2d 936, 941 (Colo. 1993). The Colorado Supreme Court has stated, as relevant here:

3

10

—0 ~

Such discretion should be guided by the nature of the requested attorney fees. If
attorney fees are part of the substance of a lawsuit, that is, if the fees being sought
are “the legitimate consequences of the tort or breach of contract sued upon,” ...
such as in an insurance bad faith case, then such fees are clearly damages. If, on
the other hand, attorney fees are, as here, simply the consequence of a contractual
agreement to shift fees to a prevailing party, then they should be treated as
“costs[.]”
Ferrell, 848 P.2d at 941.1 See also Farmers Reservoir& Irr. Co. v. City of Golden, 113 P.3d 119,
134 (Colo. 2005) (same, citing Ferrell, supra)', Chartier, 25 P.3d at 1281 (same, citing Ferrell,
supra).
In this case, the Promissory Note provision upon which Plaintiff relies for its request for
attorney’s fees and costs states that: “If the Note Holder has required me to pay immediately in
full as described above, the Note Holder will have the right to be paid back by me for all of its
costs and expenses in enforcing this Note to the extent not prohibited by applicable law. Those
expenses include, for example, reasonable attorney’s fees.” (ECF No. 3, page 10.)2 By its terms,
the costs and expenses recoverable - and sought by Plaintiff here - are the consequences of the
breach of the Promissory Note sued upon. As such, they are an item of damages.
This is further supported by Plaintiffs argument that the attorney’s fees are not subject to
the ‘“element of damages’ exception” as the fees sought were not allegedly “incurred in a
separate action.” (Plaintiffs Response, p. 4.) On the contrary, even a cursory review of the fees
statements shows requests are made for fees charged by two other law firms (neither of whom

1 Plaintiffs apparent assertion that where a request for fees is based on a “contractual provision” or agreement such
fees are to be treated as costs is disingenuous where the cases it cites specifically provide it is so where the provision
or agreement is for “shifting] fees to a prevailing party.” Chartier, 25 P.3d at 1281; Ferrell, 848 P.2d at 941.
2 The page reference is to the page number assigned to the document through the CM/ECF system, found at the
upper right-hand comer of the document.
4

11

~ZJ

have ever entered their appearance in this matter) apparently related to another foreclosure
proceeding against Defendant(s), and for fees incurred in Defendants’ bankruptcy proceedings.
As such, the requested attorney’s fees and costs are “damages.” The inquiry, of course, does not
end here.
C. Summary Judgment on Fees and Costs Request
Plaintiff contends that even if the attorney’s fees and costs are an element of damages, the
Court has already determined all issues on summary judgment and nothing remains for a jury.
On this record, the Court agrees, mainly.
In its prior order, the Court stated that “Section 7(E) allows LNV to recover all ‘costs and
expenses in enforcing the Note’ such as reasonable attorneys’ fees,” but found Plaintiff failed to
show the amount it requested on summary judgment fell within this section. (ECF No. 320, p.
12.) Thus, while the Court found reasonable attorney’s fees may be recoverable under Section
7(E), there was no determination that any fees Plaintiff may request are covered under this
section or the amount of any such fees. In the Court’s view, that is what Plaintiff currently seeks
in its Motion - and Defendants’ argument that the Motion seeks fees as damages comports with
this view. That is not to say, however, that Plaintiff may not do so by motion.
As Plaintiff argues, summary judgment may be had on the amount of damages. See J.R.
Simplot v. Chevron Pipeline Co., 563 F.3d 1102, 1117 (10th Cir. 2009). Indeed, the Tenth
Circuit has stated a “district court could grant summary judgment sua sponte on any and all
aspects of [a party’s] claim, including damages, if there were no genuine issues of material fact,
see Fed. R. Civ. P. 56(d), and [opposing party] had notice of its duty to proffer all evidence.” J.R.
5

12

—zj — -

Simplot, 563 F.3d at 1117. Accordingly, the Court construes the Motion as one for summary
judgment. See Fed. R. Civ. P. 56(b) (“Unless a different time is set by local rule or the court
orders otherwise, a party may file a motion for summary judgment at any time until 30 days after
the close of all discovery.” (emphasis added)); Fed. R. Civ. P. 1 (The rules of civil procedure
“should be construed, administered, and employed by the court and the parties to secure the just,
speedy, and inexpensive determination of every action and proceeding.”).
The issue, however, is whether Defendants had sufficient notice of their duty to proffer
all their evidence in opposition to the Motion. The Court finds they have. Here, Defendants argue
the damages issue is a factual one, but fail to provide any evidence in opposition to Plaintiff s
Motion. Further, Defendants raise several challenges, but none as to the reasonableness or
necessity of the fees sought or the rates charged. Accordingly, the Court evaluates whether
Plaintiff has shown it is entitled to summary judgment. Reed v. Bennett, 312 F.3d 1190, 1194
(10th Cir. 2002) (“Summary judgment is not proper merely because [the nonmoving party] failed
to file a response. Before the burden shifts to the nonmoving party to demonstrate a genuine
issue, the moving party must meet its ‘initial responsibility’ of demonstrating that no genuine
issue of material fact exists and that it is entitled to summary judgment as a matter of law.”
(citing Celotex Corp. v. Catrett, All U.S. 317, 323 (1986)).
The Promissory Note at issue provides that Plaintiff has the right to recover from
Defendant Hook “all of its costs and expenses in enforcing the Note” and “those expenses
include, for example, reasonable attorney’s fees.” (ECF No, 3, p. 10.) And, here, Plaintiff
presents billing statements and the affidavit of current counsel (Mr. Barber), which stands
6

13

—Zf —

■

unrefuted, that (1) the billing rates of the legal assistants/paralegals and attorneys who worked on
the case are customary and are at or below the rates of legal assistants/paralegals and attorneys
with similar experience in the Denver area; (2) all the services performed were necessary and
directed related to the representation of Plaintiff s collection and foreclosure efforts to enforce
the Promissory Note and Deed of Trust and in defending against Defendants’ related defenses
and counterclaims; (3) the amount of fees and costs incurred were reasonable to accomplish the
tasks necessary; and (4) the total amount of fees is $259,244.00 and the total amount of costs is
$20,370.18. The Court finds this record sufficient for Plaintiff to meet its burden in the first
instance as to the fees and costs incurred by the firm of current counsel, i.e., Bieging Shapiro &
Barber LLP n/k/a Shapiro Bieging Barber Otteson LLP, but not of other counsel.
Plaintiffs other counsel are Robert J. Hopp & Associates and Aronowitz &
Mecklenburg, LLP. While the statements of such other counsel have been submitted for the
Court’s consideration, Mr. Barber’s affidavit fails to sufficiently show he has personal
knowledge concerning the fees and costs of other counsel. For example, Mr. Barber refers to
billing rates but the record shows he was referring to rates of his law firm. Indeed, from the
“block” time billing submitted, the billing rates of those other counsel are unknown. Thus, those
fees and costs will not be awarded. Those amounts are $2,372.50 in fees and $3,117.50 in costs,
totaling $5,490.00.
Based on the foregoing, after reducing the fees and costs from other counsel from
Plaintiffs requested fees and costs, the amount due under the Promissory Note is $239,510.00
($245,000.00-$5,490.00). The Court finds there are no genuine issues of material fact and that
7

14

—o - -

Plaintiff is entitled to summary judgment as matter of law that the amount owed under the
Promissory Note as of March 18, 2018 is $239,510.00. As the Tenth Circuit has stated:
[WJhere contracting parties have agreed that a breaching party will be liable for
attorneys’ fees, the purpose of the award is to give the parties the benefit of that
bargain, and the court’s responsibility is to enforce that bargain. Normally, where
the court is merely enforcing a contractual provision authorizing attorneys’ fees,
the fees are routinely awarded and the contract is enforced according to its terms.
J.R. Simplot, 563 F.3d at 1119 (quoting United States ex rel. C.J.C., Inc. v. Western States
Mechanical Contractors, Inc., 834 F.3d 1533, 1548 (10th Cir. 1987)). Accordingly, the Motion
is granted.
D. Defendants’ Other Arguments
Defendants’ three remaining arguments under Rule 54(d)(2) merit little discussion. Such
arguments are unavailing as Rule 54(d) is inapplicable where the Court has found the requested
fees and costs are an element of damages. 10 Charles Alan Wright et al., Federal Practice &
Procedure § 2680 (4th ed. 2018) (The Rule 54(d) procedures “do not apply...to fees that under
governing law are recoverable as an element of damages.”).
E. Defendants - or Defendant Hook only?
The parties’ briefing did not distinguish between Defendants versus Defendant Hook, but
the Court finds it is necessary to do so: Defendant Hook is the only signatory on the Promissory
Note. This does not, however, change the amount owed under the Promissory Note. The Court is
well acquainted with this case and finds that no apportionment or reduction in the amount is
necessary because Defendants filed their papers jointly3 and such fees were incurred in enforcing

3 There were only a few instances where a paper was filed only by Defendant Hook or Defendant Smith.
8

15

—o — -

the Promissory Note.
in.

CONCLUSION
Based on the foregoing, the Court ORDERS
(1) That Plaintiff LNV Corporation’s Motion for Award of Attorney’s Fees and Costs
(ECF No. 414), construed as a motion for summary judgment, in GRANTED in that
the amount of $239,510.00 is owed under the Promissory Note as of May 31,2018;
(2) That Plaintiff is entitled to reasonable attorney’s fees and expenses incurred after May
31, 2018, in connection with this case and the associated foreclosure sale if they fall
within the terms of the Promissory Note, and that Plaintiff make seek the same after
such fees and costs are incurred; and
(3) That Plaintiff’s request for any fees and costs associated with any appeals taken from
the orders of this Court are denied without prejudice as premature.
DATED this 5th day of March, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

9

16

—ci -

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

ORDER

This matter is before the Court on the following matters: (1) Plaintiffs Motion to Enjoin
Further Pro Se Pleadings or, in the Alternative, to Withdraw the Reference or Stay Adversary
Proceeding (the “Motion to Enjoin”) (ECF No. 427); (2) Defendants Hook and Smith’s Motion to
Strike, for Sanctions and for Order to Show Cause (the “Motion to Strike”) (ECF No. 428); (3)
Plaintiffs Request for a Status Conference (the “Motion for Conference”) (ECF No. 430); (4)
Defendants Hook and Smith’s Motion for Sanctions against Plaintiff LNV Corporation and its
Counsel, Duncan E. Barber and Julie A. Trent (ECF No. 431); (5) Defendants Hook and Smith’s
Motion for Sanctions against the United States of America and its Counsel at the U.S. Department
of Justice in Washington, DC (ECF No. 432)1; and (6) Defendants Hook and Smith’s Request for
Evidentiary Hearing on Motions for Sanctions (the “Motion for Hearing”) (ECF No. 433). The
The motions for sanctions are collectively referred to herein as “Motions for Sanctions.”

17

~’ZJ -

Court has considered the motions and any responses thereto; taken judicial notice of the court
record as well as the record before the Bankruptcy Court in Adversary Proceeding No.
18-1250-TBM (Bankr. D. Colo.) (the “Adversary Proceeding”); and is otherwise fully advised
concerning the matters at issue. Upon being fully informed the Court finds and orders as follows.
I.

The Motions
A. Motion to Enjoin and Motion to Strike
Defendants Hook and Smith (hereafter, collectively, “Defendants”) have filed the

Adversary Proceeding against Plaintiff LNV, using their Verified Answer filed in this action
(14-cv-955) as their complaint in the Adversary Proceeding (Adv. Proc. ECF No. 1 & No. 1-1).
Not surprisingly, Plaintiff requests this Court to enjoin Defendants from filing further pro se2
pleadings in this case or any other case (including the Adversary Proceeding) arising from the
same facts and claims before this Court. In the alternative, Plaintiff requests this Court to
withdraw the reference or stay the Adversary Proceeding.
Defendants’ response consists of their Motion to Strike. In that motion, Defendants argue
the Motion to Enjoin should be stricken, and sanctions entered, because (1) Plaintiff s continuation
of this litigation allegedly violates the Bankruptcy Court’s automatic stay, discharge order, and
discharge injunction; (2) Plaintiffs Motion to Enjoin was improperly filed during Defendant
Hook’s appeal; (3) Plaintiffs Motion to Enjoin allegedly falsely accuses Defendants of filing a
frivolous proceeding; and (4) Plaintiffs request for withdrawal of reference should have been filed
in the Bankruptcy Court. The Court agrees with Defendants’ last argument, but rejects the rest as
specious, and frivolous.
First, Defendants’ argument concerning any alleged violations of the Bankruptcy Court’s
2 Defendants are lawyers who appear pro se.

2

18

rules or orders have been repeatedly rejected. Defendants simply refuse to accept the Court’s
ruling, without any legal or factual basis. Next, the Tenth Circuit Court of Appeals dismissed
Defendant Hooks’ appeal on August 28,2018; Plaintiffs Motion to Enjoin was filed thereafter on
September 17,2018. (ECF Nos. 426, 427.) Third, Plaintiffs argument concerning Defendants’
filing of the Adversary Proceeding is far from false. On the contrary, Defendants are improperly
seeking to have the Bankruptcy Court hear and decide what this Court has already decided.
This leads the Court to Defendants’ last argument - where Plaintiffs request for the
withdrawal of the reference should have been filed. This District’s Local Rules do provide that a
motion of withdrawal of reference - although to be heard by the district court - is to be filed with
the clerk of the bankruptcy court, D.C.COLO.LCivR 84.1(d)(1), but the Court finds that failure to
be insufficient to strike the request. Regardless, 28 U.S.C. § 157(d) also allows the Court to
withdraw a reference on its own motion. And, upon consideration of the record, the Court agrees
that good cause exists for the withdrawal of the reference to the Bankruptcy Court. Thus, in this
instance, the Court need not consider Plaintiffs other argument that filing restrictions should be
entered.3 The Court denies that request without prejudice.
B. The Motion for Conference
Plaintiff requests a status conference to address the order of foreclosure and pending
motions. The pending motions, however, have now all been addressed and, as set forth in Order
on Attorney’s Fees and Costs issued concurrently with this Order, the Court is prepared to issue
the Order of Foreclosure and Judicial Sale forthwith upon the resolution of the remaining issue in
this case. Thus, this motion is denied as moot.
3 The Court recognizes Plaintiff admits its Motion to Enjoin which seeks filing restrictions may need to be a
standalone motion and, if so, withdraws the alternate relief of withdrawing the reference or staying the Adversary
Proceeding. However, the Court finds withdrawal of the reference is the appropriate remedy in this instance.

3

19

•

—Zf —

C. The Motions for Sanctions and Motion for Hearing
Defendants’ Motions for Sanctions merit no discussion. The Court finds Defendants’
legal contentions are not warranted under existing law, or by any nonfrivolous argument for
extending, modifying, or reversing existing law or for establishing new law. The Court further
finds that any evidentiary contentions, which are virtually nonexistent, are not warranted based on
the record. Accordingly, they are summarily denied. As, as they are denied, Defendants’
Motion for Hearing on their Motions for Sanctions is moot.
II.

CONCLUSION
Defendants’ papers continue to argue the same matters about their bankruptcy, its alleged

effect, and Plaintiffs and the United States’ alleged violations of the Bankruptcy Court’s rules and
orders, all of which this Court has repeatedly rejected. The record at hand shows Defendants have
a lengthy and abusive filing history, as demonstrated by, inter alia, their two adversary
proceedings filed before the Bankruptcy Court which consist of nothing more than that which this
Court has already decided against them in this case. This Order puts Defendants on notice that if
this conduct continues, the Court will sua sponte consider entering appropriate sanctions
(including, but not limited to, filing restrictions and dismissing duplicative filings and actions) to
preclude Defendants from continuing to abuse the judicial process, waste scarce judicial resources,
and prejudice the other parties with their groundless and frivolous filings. Andrews v. Heaton,
483 F.3d 1070, 1077 (10th Cir. 2007) (Federal courts have inherent authority to regulate abusive
litigants “by imposing carefully tailored restrictions in appropriate circumstances.”).
Based on the foregoing, it is therefore ORDERED
(1) That Plaintiff Motion to Enjoin Further Pro Se Pleadings or, in the Alternative, to

4

20

~~ZJ -

Withdraw the Reference or Stay Adversary Proceeding (ECF No. 427) is GRANTED
in that the Court will withdraw the reference of Adversary Proceeding No.
18-125-TBM, but is DENIED WITHOUT PREJUDICE as to Plaintiffs request to
enjoin further pro se filings;
(2) That Defendants Hook and Smith’s Motion to Strike, for Sanctions and for Order to
Show Cause (ECF No. 248) is DENIED;
(3) That Plaintiffs Request for a Status Conference (ECF No. 430) is DENIED AS
MOOT;
(4) That Defendants Hook and Smith’s Motion for Sanctions against Plaintiff LNV
Corporation and its Counsel, Duncan E. Barber and Julie A. Trent (ECF No. 431) is
DENIED;
(5) That Defendants Hook and Smith’s Motion for Sanctions against the United States of
America and its Counsel at the U.S. Department of Justice in Washington, DC (ECF
No. 432) is DENIED;
(6) That Defendants Hook and Smith’s Request for Evidentiary Hearing on Motion for
Sanctions (ECF No. 433) is DENIED; and
(7) That the Clerk shall forthwith notify the Clerk of the Bankruptcy Court of this Order.
DATED this 4th day of April, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

5

21

* -*o -

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

ORDER ON ATTORNEY’S FEES AND COSTS

The Court is prepared to issue the Order for Foreclosure and Judicial Sale in this matter. It
is also prepared to issue final judgment. But, before it may do so one matter remains pending
which requires resolution. Specifically, by Order dated March 5, 2019, the Court awarded
Plaintiff certain fees and costs but left open the issue of any additional recovery of such items
incurred after May 31,2018. That issue remains unresolved.
Accordingly, the Court ORDERS that on or before April 11, 2019:
(1) Plaintiff shall file a notice stating that it seeks no additional attorney’s fees and costs, in
which case the Order of Foreclosure and Judicial Sale shall issue forthwith and final
judgment shall enter; OR
(2) Plaintiff shall file its motion setting forth the remaining attorney’s fees and costs it

22

••cp -

seeks, showing that such amounts are recoverable under the relevant document(s). If
Plaintiff files such motion, any other party may file a response within five (5) days of
the service of the motion. No further briefing will be allowed. Upon the resolution of
this issue, the Order of Foreclosure and Judicial Sale shall issue forthwith and final
judgment shall enter.
DATED this 4th day of April, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

2

23

—Zt —

—

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-KHR
LNV CORPORATION,
Plaintiff,
v.

M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

ORDER

This matter is before the Court on Plaintiffs Notice Regarding Attorney’s Fees and Costs
(ECF No. 440) advising the Court that Plaintiff seeks no additional attorney’s fees and costs under
its claims. Accordingly, the Court finds all claims (however denominated) and issues in this case
are resolved, and that Final Judgment and the Order of Foreclosure and Judicial Sale may enter.
There being no matters pending, it is ORDERED
(1) That the Clerk shall enter final judgment in favor of Plaintiff LNV Corporation and
against Defendants as set forth in this Court’s Orders dated March 13, 2017 (ECF No.
301); March 14, 2017 (ECF No. 303); June 28, 2017 (ECF No. 320); June 21, 2018
(ECF No. 404); and March 5, 2019 (ECF No. 436);
(2) That the Clerk shall enter final judgment in favor of Defendant United States of

24

—Zl — —

America and against Defendant Hook as set forth in this Court’s Order dated December
4,2015 (ECF No. 218);
(3) That in accordance with the Orders issued in this case, the Order of Foreclosure and
Judicial Sale shall enter; and
(4) That this case shall remain open pending the Court’s order confirming the judicial sale
and distributing the proceeds from the sale.
DATED this 5th day of April, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

2

25

—Zf — —

APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 14-CV-00955-RM-SKC
LNV CORPORATION,
Plaintiff,

v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.
FINAL JUDGMENT
In accordance with the orders filed during the pendency of this case, and pursuant
to Fed. R. Civ. P. 58(a), the following Final Judgment is hereby entered.
Pursuant to the Order (Doc. 441) by Judge Raymond P. Moore dated April 5, 2019, it
is
ORDERED that pursuant to the Order dated March 13, 2017 (Doc. 301) summary
judgment is entered in favor of Plaintiff LNV Corporation as follows: (1) on its first claim for
determination of interests - against Defendants Smith, St. Luke’s, and the United States; (2)
on its second claim for judicial foreclosure - against all defendants; and (3) on its fifth claim
for money judgment - against Defendant Hook. It is

26

'•5 -

FURTHER ORDERED that pursuant to the Order dated March 13, 2017 (Doc. 301)
summary judgment is entered in favor of Plaintiff LNV Corporation and against Defendants
M. Julie Hook and David L. Smith on their counterclaims based on the Loft Property. It is
FURTHER ORDERED that pursuant to the Order dated March 14, 2017 (Doc. 303)
summary judgment is entered in favor of Defendant United States of America as to
Plaintiff’s first claim for determination of interests. It is
FURTHER ORDERED that pursuant to the Order dated June 28, 2017 (Doc. 320)
summary judgment is entered in favor of Plaintiff LNV Corporation, and against Defendants
The Prudential Home Mortgage, Inc.; Debra Johnson, in her official capacity; and M. Julia
Hook. Plaintiff is owed the following: $610,243.49 in principal; $1,192.92 in unpaid late
charges; $33.00 in recording fees; and $955.00 in inspection fees. It is
FURTHER ORDERED that pursuant to the Order dated June 21, 2018 (Doc. 404)
judgment shall enter in favor of Plaintiff LNV Corporation as follows: (1) Interest from
August 2, 2009 through May 1,2018, totaling $390,810.34; (2) Per diem interest of $121.21;
(3) Real property taxes paid of $50,945.93; (4) Property (hazard) insurance premiums paid
of $30,191.75; and (5) City and County of Denver water/sewer fees, and related late fees,
paid of $543.12. It is
FURTHER ORDERED that pursuant to the Order dated March 5, 2019 (Doc. 436)
Plaintiff LNV Corporation is awarded attorney’s fees and costs in the amount of
$239,510.00, which is owed under the Promissory Note as of May 31, 2018. It is
FURTHER ORDERED that pursuant to the Order dated December 4, 2015 (Doc.
218) judgment is entered in favor of Defendant United States of America and against
Defendant M. Julia Hook. It is

27

—zt — —

FURTHER ORDERED that this case shall remain open pending the Court’s order
confirming the judicial sale and distributing the proceeds from the sale.
Dated this 5th day of April, 2019.
FOR THE COURT:
JEFFREY P. COLWELL
Bv:

s/C. Pearson__________
C. Pearson, Deputy Clerk

28

APPENDIX I
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

ORDER OF FORECLOSURE AND JUDICIAL SALE

Based on the findings, conclusions, and orders issued in the Court’s previous Orders (ECF
Nos. 301, 303, 320, 404, 436) (collectively, “Orders”), the Court enters this Order of Foreclosure
and Judicial Sale pursuant to the provisions of 28 U.S.C. §§ 2001 & 2002. In accordance with the
foregoing, the Court hereby ORDERS as follows:
1.

This Order of Foreclosure and Judicial Sale pertains to a parcel of real property and

improvements located in the City and County of Denver, State of Colorado, and more particularly
described as Lot 1, Block 1, Crestmoor Park, City and County of Denver, State of Colorado,
commonly known as 5800 East 6th Avenue, Denver, Colorado 80220 (the “Property”).
2.

Plaintiff LNV Corporation (“LNV”) has a valid first priority lien on the Property,

arising from the Deed of Trust dated May 8,2002 and recorded on May 16, 2002 in the real

29

-~zj -

“

property records of the City and County of Denver, State of Colorado, under Reception No.
2002090105 (the “Deed of Trust”). (See Orders dated March 13,2017 (ECF No. 301); March 14,
2017 (ECF No. 303); June 28, 2017 (ECF No. 320); and June 21, 2018 (ECF No. 404).)
3.

The United States has valid federal tax liens against Defendants M. Julia Hook and

David L. Smith (“Hook and Smith”) as set forth in the Court’s March 14, 2017 Order (ECF No.
303), which are second in priority to LNV’s Deed of Trust against the Property.
4.

Pursuant to this Court’s Orders, the Deed of Trust is to be foreclosed under

28 U.S.C. §§ 2001 and 2002 and in accordance with this Order of Foreclosure and Judicial Sale.
The United States Marshal, or his or her representative, is authorized and directed under 28 U.S.C.
§§ 2001 and 2002 to offer for public sale and to sell the Property free and clear of all right, title,
lien, claim, and interest in or to the Property.
5.

This Order of Foreclosure and Judicial Sale shall act as a special writ of execution

and no further orders or process from the Court shall be required.
6.

Upon entry of this Order of Foreclosure and Judicial Sale, the United States

Marshal, or his or her representative, is authorized to have free access to the Property and to take
all actions necessary to preserve the Property, including, without limitation, retaining a locksmith
or other person to change or install locks or other security devices on any part thereof, until a deed
thereto is delivered to the ultimate purchasers).
7.

The terms and conditions of the sale are as follows:
a.

Except as otherwise stated herein, the sale of the Property shall be by public
auction to the highest bidder, free and clear of all right, title, lien, claim, and
interest in or to the Property, including, but not limited to, all parties to this
2

30

"O -

action. The United States Marshal (sometimes referred to herein as
“Marshal”), or his or her representative, shall sell the Property and any
personal property (as set forth in Paragraph 9) “AS IS,” without any
warranties, general or implied.
b.

The sale shall be subject to all laws, ordinances, and governmental
regulations (including building and zoning ordinances) affecting the
premises, and easements and restrictions of record, if any.

c.

The sale shall be held at the United States District Court for the District of
Colorado, on the Property’s premises, or at any other place in accordance
with the provisions of 28 U.S.C. §§ 2001 and 2002, at a date and time
announced by the United States Marshal, or his or her representative.

d.

Notice of the sale shall be published once a week for at least four
consecutive weeks before the date fixed for the sale in at least one
newspaper regularly issued and of general circulation in the City and
County of Denver, Colorado, and, at the discretion of the Marshal, or his or
her representative, by any other notice that it may deem appropriate. State
or local law notice requirements for foreclosures or execution sales do not
apply to this sale under federal law, and state or local law regarding
redemption rights do not apply to this sale. The notice of sale shall
describe the Property and shall contain the material terms and conditions of
sale in this Order of Foreclosure and Judicial Sale.

e.

The minimum bid will be set by LNV as a credit bid on the amounts owed
3

31

-

LNV as set forth in the Court’s Orders of June 28, 2017 (ECF No. 320),
June 21, 2018 (ECF No. 404), and March 5, 2019 (ECF No. 436)
(collectively, the “Money Judgment”). LNV is authorized and permitted
to credit bid at the sale against the Money Judgment.
f.

Bidders (other than LNV) shall be required to deposit, at the time of sale
with the Marshal, or his or her representative, a minimum of 10 percent of
the bid, with the deposit to be made by a certified or cashier’s check payable
to the United States District Court for the District of Colorado. Before
being permitted to bid at the sale, bidders shall display to the Marshal, or his
or her representative, satisfactory proof of compliance with this
requirement.

g-

The balance of the purchase price of the Property in excess of the deposit
tendered shall be paid to the Marshal, or his or her representative, within 30
business days after the date the bid is accepted, by a certified or cashier’s
check payable to the United States District Court for the District of
Colorado. If the successful bidder or bidders fail to fulfill this
requirement, the deposit shall be forfeited and shall be applied to cover the
expenses of the sale, including commissions due under 28 U.S.C. § 1921 (c),
with any amount remaining to be applied as described herein, below. The
Property shall be again offered for sale under the terms and conditions of
this Order of Foreclosure and Judicial Sale or, in the alternative, sold to the
second-highest bidder, as determined by the Marshal, or his or her

4

32

—c; -

representative. LNV may bid as a credit against the Money Judgment
without tender of cash.
h.

The sale of the Property shall not be final until confirmed by this Court.
The Marshal, or his or her representative, shall file a report of sale with the
Court within 15 days from the date of receipt of the balance of the purchase
price.

1.

Upon confirmation of the sale by order of this Court, the Marshal, or his or
her representative, shall promptly execute and deliver a deed ofjudicial sale
conveying the Property to the purchaser(s).

J-

Upon confirmation of the sale by order of this Court, all right, title, lien,
claim, and interest in or to the Property including, but not limited to, those
held or asserted against the Property by any of the parties to this action and
any successors in interest or transferees of those parties shall be discharged
and extinguished, except as otherwise provided by applicable ordinance or
regulation of the City and County of Denver, State of Colorado, with
respect to liens in favor of such City and County.

k.

The sale is ordered pursuant to 28 U.S.C. § 2001. Redemption rights under
state or local law shall not apply to this sale under federal law.

1.

Upon confirmation of the sale by the Court, the purchaser or purchasers are
responsible for having the Recorder of Deeds cause the transfer of the
Property to be reflected in the county real property records.

8.

Until the Property is sold, M. Julia Hook and David L. Smith (hereafter, “Hook and
5

33

•’Cl

Smith”) shall take all reasonable steps necessary to preserve the Property (including all buildings,
improvements, fixtures, and appurtenances thereon) including, without limitation, maintaining fire
and casualty insurance policies on the Property. Hook and Smith shall keep current in paying real
property taxes as they are assessed. Hook and Smith shall not commit waste against the Property,
nor shall they cause or permit anyone else to do so. Hook and Smith shall not do anything that
tends to reduce the value or marketability of the Property, nor shall they cause or permit anyone
else to do so. Hook and Smith shall not record any instruments, publish any notice, or take any
other action that may directly or indirectly tend to adversely affect the value of the Property or that
may tend to deter or discourage potential bidders from participating in the public sale, nor shall
they cause or permit anyone else to do so. Violation of this paragraph shall be deemed a contempt
of Court and punishable as such.
9.

All persons occupying the Property shall leave and vacate permanently the

Property no later than 15 days after the entry of this Order of Foreclosure and Judicial Sale, each
taking with them his or her personal property (but leaving all improvements, buildings, fixtures,
and appurtenances) when leaving and vacating. If any person fails or refuses to leave the
Property by the time specified in this Order of Foreclosure and Judicial Sale, the United States
Marshal is authorized to take whatever action it deems appropriate, including using reasonable
force to enter into the Property and forcibly remove or eject such person or persons from the
premises.

The United States Marshal is further authorized and directed to arrest and/or evict

from the premises any and all persons who obstruct, attempt to obstruct, or interfere or attempt to
interfere in any way with the execution of this Order of Foreclosure and Judicial Sale. If any
person fails or refuses to remove his or her personal property from the Property by the time
6

34

*

—Zf —

•

specified herein, the personal property remaining at the Property thereafter is deemed forfeited and
abandoned, and the United States Marshal, or his or her representative, is authorized and directed
to remove and dispose of it in any manner they see fit, including sale, in which case the proceeds of
sale are to be applied first to the expenses of sale and the balance to be paid into the court registry
for further distribution.
10.

Notwithstanding the terms of the immediately preceding paragraph, if, after the

sale of the Property is confirmed by this Court, the Property remains occupied, a writ of assistance
may, without further notice, be issued by the Clerk of Court pursuant to Rule 70 of the Federal
Rules of Civil Procedure to compel delivery of possession of the Property to the purchaser or
purchasers thereof.
11.

If Hook and Smith or any other person occupying the Property vacate the Property

prior to the deadline set forth in Paragraph 9, above, such person shall notify counsel for LNV no
later than two (2) business days prior to vacating the Property of the date on which he or she is
vacating the Property. Notification shall be made by email to attorney Duncan Barber at
dbarber@sbbolaw.com.
12.

The Marshal shall deposit the amount paid by the purchaser into the registry of the

Court within 15 days of receipt.
13.

All funds tendered to the Court for deposit shall comply with Fed. R. Civ. P. 67 and

D.C.COLO.LCivR 67.2.
13.

Upon stipulation of the parties or by appropriate motion by LNV for disbursement

and confirmation of sale, filed in accordance with D.C.COLO.LCivR 67.2 within 30 days of the
completion of the sale of the Property, the Court will issue an order to disburse the funds in the
7

35

-*o * -

following order of preference until these expenses and liens are satisfied:
(a)

To LNV for allowed costs and expenses of sale, including any commissions due

under 28 U.S.C. §1921(c) and including an amount sufficient to cover the costs of any
steps taken to secure or maintain the Property pending sale and confirmation by the Court;
(b)

To LNV to satisfy or partially satisfy the amounts owed LNV as set forth in the

Court’s Orders of June 28, 2017 (ECF No. 320), June 21,2018 (ECF No. 404), and March
5, 2019 (ECF No. 46);
(c)

To the United States of America to satisfy or partially satisfy the outstanding

federal tax liabilities of Hook and Smith, which are liens against the Property as set forth in
the Court’s March 14, 2017 Order (ECF No. 303); and
(d)

Any proceeds remaining after the above payments shall be held by the Clerk until

further of the Court upon motion filed by the parties.
SO ORDERED.
DATED this 5th day of April, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

8

36

Case:17-16354-TBM

Doc#:54 Filed: 11/08/17

Entered:ll/08/17 08:17:31

IIIDavid Lee Smith

Debtor 1

First Name

Debtor 2
(Spouse, if filing)

Middle Name

Last Name

Mary Julia Hook
First Name

Middle Name

Pagel of 2

Social Security number or ITIN

xxx-xx-8123

EIN
Social Security number or ITIN

xxx-xx-3612

EIN

Last Name

United States Bankruptcy Court District of Colorado
Case number: 17-16354-TBM

Order of Discharge

APPENDIX J

12/15

IT IS ORDERED: A discharge under 11 U.S.C. § 727 is granted to:
David Lee Smith
aka David L. Smith, Attorney at Law

Mary Julia Hook
aka M. Julia Hook, Attorney at Law

11/8/17

By the court: Thomas B. McNamara
United States Bankruptcy Judge

Explanation of Bankruptcy Discharge in a Chapter 7 Case
This order does not close or dismiss the case,
and it does not determine how much money, if
any, the trustee will pay creditors.
Creditors cannot collect discharged debts
This order means that no one may make any
attempt to collect a discharged debt from the
debtors personally. For example, creditors
cannot sue, garnish wages, assert a deficiency,
or otherwise try to collect from the debtors
personally on discharged debts. Creditors cannot
contact the debtors by mail, phone, or otherwise
in any attempt to collect the debt personally.
Creditors who violate this order can be required
to pay debtors damages and attorney's fees.
However, a creditor with a lien may enforce a
claim against the debtors' property subject to that
lien unless the lien was avoided or eliminated.
For example, a creditor may have the right to
foreclose a home mortgage or repossess an
automobile.

This order does not prevent debtors from paying
any debt voluntarily or from paying reaffirmed
debts according to the reaffirmation agreement.
11 U.S.C. § 524(c), (f).
Most debts are discharged
Most debts are covered by the discharge, but not
all. Generally, a discharge removes the debtors'
personal liability for debts owed before the
debtors' bankruptcy case was filed.
Also, if this case began under a different chapter
of the Bankruptcy Code and was later converted
to chapter 7, debts owed before the conversion
are discharged.
In a case involving community property: Special
rules protect certain community property owned
by the debtor's spouse, even if that spouse did
not file a bankruptcy case.

For more information, see page 2 >

Official Form 318 COB#177 b318_7

Order of Discharge

page 1

37

Case:17-16354-TBM

Doc#:54 Filed:ll/08/17

Some debts are not discharged
Examples of debts that are not discharged are:

Entered: 11/08/17 08:17:31

Page2 of 2

Also, debts covered by a valid reaffirmation
agreement are not discharged.
In addition, this discharge does not stop
creditors from collecting from anyone else who is
also liable on the debt, such as an insurance
company or a person who cosigned or
guaranteed a loan.

♦ debts that are domestic support
obligations;
♦ debts for most student loans;
♦ debts for most taxes;
♦ debts that the bankruptcy court has
decided or will decide are not discharged
in this bankruptcy case;

This information is only a general summary
of the bankruptcy discharge; some
exceptions exist. Because the law is
complicated, you should consult an
attorney to determine the exact effect of the
discharge in this case.

♦ debts for most fines, penalties,
forfeitures, or criminal restitution
obligations;
♦ some debts which the debtors did not
properly list;
♦ debts for certain types of loans owed to
pension, profit sharing, stock bonus, or
retirement plans; and
♦ debts for death or personal injury caused
by operating a vehicle while intoxicated.

Official Form 318

Order of Discharge

page 2

38

